                              CLOSEOUT FOR M-94040021




that the subject misappropriated work in the proposal that had been accomplished by others. She
claimed the subject failed to cite publications he knew existed1 that would have shown that some
of the work he proposed        been com leted. The com lai t said the misappropriated work
all appeared in the
complainant alleged that NSF proposa                           ntitled

                       with the su ject as a co- , contained the misappropriated work of
others as well. She explained that, as an ad hoc reviewer for the second proposal, she saw
similarities between the first and second proposals, and she thought that he had probably
misappropriated ideas from 0th                             inally, the complainant stated that
the subject had listed a pending                           other agency) proposal on his first
proposal's Current and Pending Support (CPS) form. She alleged that the subject failed to list
the other agency proposal anywhere in his second proposal.

       Allegation #l. OIG contacted the complainant who provided the complete citation for
the Report that she said contained all the alleged misappropriated work found in the first
proposal. She explained that the similarity between the equations in the Report and the
proposal were difficult to detect because the subject changed some of the symbols in
equations.

       OIG was unable to determine what work and equations were common to the Report
and the first proposal. The complainant agreed to provide OIG with a copy of the Report with
the misappropriated sections and equations identified and cross-referenced to the subject's




  certification   He was not included in the NSF computerized data base as a co-PI.


                                          Page 1 of 2
                                    L
                             CLOSEOUT FOR M-94040021

proposal. However, despite several reminders by telephone and letter during the ensuing year,
the complainant failed to supply this information.

        OIG learned that the subject had been invited by the Report's sponsors to evaluate and
provide a second opiniofi:soml of the Report's research conclusions. The subject was
acknowledged in the Report for his contribution. OIG was informed that the subject used
some ideas he had developed and included in the Report as the basis for part of his first
proposal. OIG's review of the first proposal found no copied material in it from the Report
and considered that, even if the subject used ideas and work he had developed and presented
in the Report as part of his first proposal, he was presenting his own ideas. The complainant
also alleged that the subject had presented work in the first proposal that had already been
completed. In this case, several ad hoe reviewers commented on the first proposal's lack of
novelty and originality, its dated citations, and its inclusion of work already accomplished by
the subject. The completed work presented in the subject's first proposal was clearly noted by
the reviewers. As a result, the proposal was determined to be non-competitive and was
declined.

       OIG could find no evidence that the subject had misappropriated work from the
Report. There was no substance to the allegation.

        Allegations #2 and #3. OIG determined that the subject was not a PI or co-PI on the
second proposal. Instead, he was included as a participant. Consequently, he was not
responsible for the content of the second proposal and he was not required to submit a CPS
form listing his other agency support. The complainant provided no information with respect
to the alleged misappropriated work in the second proposal. OIG concluded that there was no
substance to either allegation.

       This inquiry was closed and no further action will be taken.

cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                      Page 2 of 2
